Supreme Court of the United States

Vekuii Rukoro, et al.
(Petitioners)
V.

No. 20-1454

Federal Republic of Germany
(Respondent)
Counsel for Respondent:

NOTICE IS HEREBY GIVEN pursuant to Rule 12.3 that a petition for a writ of
certiorari in the above-entitled case was filed in the Supreme Court of the United States
on April 10, 2021, and placed on the docket April 16, 2021. Pursuant to Rule 15.3, the
due date for a brief in opposition is Monday, May 17, 2021. If the due date is a Saturday,

Sunday, or federal legal holiday, the brief is due on the next day that is not a Saturday,
Sunday or federal legal holiday.
Beginning November 13, 2017, parties represented by counsel must submit filings
through the Supreme Court's electronic filing system. Paper remains the official form of
filing, and electronic filing is in addition to the existing paper submission requirement.
Attorneys must register for the system in advance, and the registration process may take
several days. Further information about the system can be found at
httDs://www.suDremecourt.gov/filingandrules/electronic filing.asDx.

Unless the Solicitor General of the United States represents the respondent, a
waiver form is enclosed and should be sent to the Clerk only in the event you do not
intend to file a response to the petition.
Only counsel of record will receive notification of the Court's action in this case.
Counsel of record must be a member of the Bar of this Court.

Mr. Kenneth F. Mccallion
Mccallion & Associates LLP
100 Park Ave
16th FI
New York, NI 10017
6463660884

NOTE: This notice is for notification purposes only, and neither the original nor a copy should be filed in the
Supreme Court.

WAIVER
Supreme Court of the United States
No. 20-1454

v.

Vekuii Rukoro, et al.

Federal Republic of Germany
Orespondent)

¢etitioners)

I D0 NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.

Please check the appropriate box:
H
X I are filing this waiver on behalf of all respondents.
n

I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Please check the appropriate box:
IX I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)
I

I am not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature

May 11, 2021
(Type or print) Name

IXMr.

I Ms.

I Mrs.

I Miss

Firm Rubin, Winston, Diercks, Harris & Cooke, LLP
Address

1250 Connecticut Avenue, NW, Suite 700

City & State

Phone

20036

Washington, DC

(202) 861-0870

Email

wdiercks@rwdhc.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONERS IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.
CC:

Kenneth F. McCallion

